■ <£ 0=WS2R
'.W'

IN THE
SUPREME COURT OF THE UNITED STATES

BRANDON ROBINSON
(Your Name)
vs.
METZGER, ET. AL.

»P
ii
a
11rs^\m.i
V_y i U H '*"z& y

L.i l. .

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI T 3

FILED
APR 1 9 2021

OFFICE OF THE CLERK

UNITED STATES COURT OF APPEALS FOR THE THIRD C1^KffiPE CQuR^L§^_
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

BRANDON ROBINSON
(Your Name)
JTVCC, 1181 PADDOCK ROAD
(Address)
SMYRNA, DE 19977
(City, State, Zip Code)
NONE
(Phone Number)

QUESTION(S) PRESENTED
1. Was counsel.ineffetiye. within the meaning of Strickland, and did the ineffectiveness present
a Martinez claim irfthe'petitioner's appellate proceedings?
2. Did a Brady violation occur within the context of the new statements made after the discovery
process, and used in trial? Did counsel have an obligation to object or otherwise move to
exclude the statements as being outside the scope of discovery?
3. Was trial counsel ineffective within the meaning of Strickland for "misplacing the trial record" and
and notes, which disallowed appellate counsel to properly perfect the petitioner's direct appeal?
4. Without an accurate record on direct appeal, could it be presumed that the petitoner's Rule 61
motion for post-conviction relief in the Superior Court was futile and fatally flawed, due to trial and
appellate counsel’s ineffectiveness?

Type text here

LIST OF PARTIES

®K[ All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Delaware vs. Brandon Robinson, Case #1009012821
Brandon Robinson vs. State of Delaware, 65 A.3d 617 (Del. Supr. 2013)
Robinson vs. Pierce, Et. Al., Civ. Act. No. 1:17-cv-00052 (U.S. Dist. 2017
Robinson vs. Metzger, Et. Al., Civ. Act. No. 17-52-LPS (U.S. Dist. 2020)
USCA Appeal No. 20-1818

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

6

CONCLUSION

INDEX TO APPENDICES
APPENDIX A
APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

5

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

^ For cases from federal courts:
to

The opinion of the United States court of appeals appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
^ is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
> or,
[ ] has been designated for publication but is not yet reported; or,
£ ] is unpublished.
court
The opinion of the _
to the petition and is
appears at Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

JURISDICTION

^ For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was 10/23/2020______________________ _

[ ] No petition for rehearing was timely filed in my case.
^ A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: l1/18/2020---------------------- , and a copy of the
order denying rehearing appears at Appendix---------^ An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on 10/23/2020
to and including--------in Application No. —A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix---------[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Sixth Amendment U.S. Constitution
Fourteenth Amendment U.S. Constitution
7 ype text here

3.

-y

STATEMENT OF THE CASE
This is a request for a Writ of Certiorari from the ORDER of the United States Court of Appeals for the
Third Circuit denying the petitoner’s rehearing en banc, and upholding the United States District Court
for the District of Delaware's ruling DENYING the petitioner's Petition for a Writ of Habeas Corpus.

i

l

>•

4.

I

•3

I

V...
REASONS FOR GRANTING THE PETITION
The records below reflect that the petitioner raised a claim of ineffective assistance of counsel, pursuant to
the Sixth Amendment to the U.S. Constitution as interpreted thru Strickland v. Washington (cite ommitted). The
basis for the petitoner's submission was that his trial counsel, Eugene Mauer, Esq., fatally compromised his
trial by failing to object to new statements utilized by the prosecution to aid in his conviction. The statements
were introduced outside of the discovery process entailed in Delaware Superior Court Criminal Rule 16, and
were not corroborated at trial pursuanbt to Delaware Uniform Rules of Evidence 3507. As such, the statements
were utilized in violation of the operative ruling in Brady, and form a manifest Fifth and Fourteenth Amendment
violation. Trial counsel had an obligation to object and/ or move the trial court to exclude the statements as
being outside of discovery; however, he failed to do so, rendering him ineffective. "Had it not been for counsel's
ineffectiveness, the outcome of the trial would have been different." (Quoting Strickland)
To further exasperate trial counsel's ineffectiveness, he failed to provide appellate counsel, Christopher Koyste,
with a complete record of the trial and appended case notes to allow for a perfected Opening Appeal brief. Even
assuming, arguendo, that Mr. Koyste felt he was able to perfect the appeal brief independent of a complete record,
the mere FACT that the record was incomplete is a manifest ineffective assistance of counsel, and the lower
courts were obligated to VACATE the conviction for such an overt violation of the petitioner's Sixth Amendment
Right.
The Delaware Superior Court erred in denying the petitioner's ineffective assistance of counsel claim based on
the totality of circumstances. Likewise, the Delaware Supreme Court erred in affirming the Delaware Superior
Court's ruling.
The U.S. District Court of Delaware denied the petitioner's writ of habeas corpus as procedurally barred. The
petitioner argues that the ruling in Martinez applies to his case, because the ineffective assistance of counsel is
so egregious that it should shock the conscious of the court. The U.S. District Court and the USCA Third Circuit
erred.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date: H- \ *5-£o&l\

